June 2, 2021

Alan E. Schoenfeld

By Electronic Filing

+1 212 937 7294 (t)
+1 212 230 8888 (f)
alan.schoenfeld@wilmerhale.com

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

Demetrius William Edwards, et al. v. Sherry Burt, Warden, et al., No. 20-1218

Dear Mr. Harris:
I represent Petitioners in the above-captioned case. The petition for a writ of certiorari
was filed on February 26, 2021, and the brief in opposition was filed on June 2, 2021. Under this
Court’s Rule 15.5, I write to waive the 14-day waiting period and request that the petition,
response, and forthcoming reply be distributed to the Court without delay for its consideration.
I understand that upon the submission of this waiver, the petition, response, and
forthcoming reply will be distributed on the next scheduled distribution date—June 8, 2021—for
consideration at the Court’s June 24 Conference.
Respectfully submitted,
/s/ Alan Schoenfeld
Alan Schoenfeld

cc: Fadwa A. Hammoud, Counsel for Respondents (by electronic mail)

